TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                            The Internal Revenue Service
                        Is Improving Management Controls
                       for Information Technology Strategic
                         Planning and Capital Investments



                                            July 9, 2010

                              Reference Number: 2010-20-064




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                HIGHLIGHTS


THE INTERNAL REVENUE SERVICE IS                    status for the Office of Management and
IMPROVING MANAGEMENT CONTROLS                      Budget’s Information Technology Dashboard.
FOR INFORMATION TECHNOLOGY                         The Information Technology Investment
STRATEGIC PLANNING AND CAPITAL                     Management Framework identifies and
INVESTMENTS                                        establishes critical information technology
                                                   investment processes. It also assesses an
                                                   organization’s information technology
Highlights                                         investment management capability and maturity
                                                   based on five stages and offers
Final Report issued on July 9, 2010                recommendations for improvement. TIGTA
                                                   reviewed the Strategy and Capital Planning
Highlights of Reference Number: 2010-20-064        office’s self-assessment and concurred that the
to the Internal Revenue Service Chief              IRS was at Maturity Stage 2, which is building
Technology Officer.                                an investment foundation. The IRS is currently
                                                   moving toward Maturity Stage 3, which is
IMPACT ON TAXPAYERS                                developing a complete investment portfolio.
The Internal Revenue Service’s (IRS) Strategy      The Clinger-Cohen Act requires each executive
and Capital Planning office focuses on IRS-wide    agency to design and implement a process for
information technology strategy and capital        maximizing the value and assessing and
planning and investment controls. This office is   managing the risk of the information technology
improving its management controls for              acquisitions. Although the Strategy and Capital
managing information technology investments at     Planning office has implemented a CPIC
the IRS. Effective management of information       process that generally meets the requirements
technology products promotes efficient use of      of the Clinger-Cohen Act, its process does not
funds and helps to provide taxpayers the           address the requirement for identifying
customer service they need from the IRS.           investments that would result in shared benefits
                                                   or costs for other Federal agencies or State or
WHY TIGTA DID THE AUDIT
                                                   local governments.
This audit was initiated as part of our Fiscal
Year 2010 Annual Audit Plan and addresses the      WHAT TIGTA RECOMMENDED
major management challenge of Modernization        To ensure compliance with the Clinger-Cohen
of the IRS. Our overall objective was to           Act, TIGTA recommended that the Chief
determine the effectiveness of the controls for    Technology Officer 1) identify applications in the
the IRS’ Capital Planning and Investment           information technology inventory that share
Control (CPIC) process to manage and control       benefits and costs with other Federal agencies
information technology investments.                or State or local governments, and 2) establish a
                                                   CPIC process for maximizing the value and
WHAT TIGTA FOUND
                                                   assessing and managing the risk of these
The IRS recently merged its investment             information technology acquisitions.
management activities into the Strategy and
                                                   In its response to the report, the IRS agreed with
Capital Planning office. The Director, Strategy
                                                   our recommendations. The IRS plans to
and Capital Planning, is completing the office
                                                   develop an information technology inventory of
charter, updating the CPIC Process Guide,
                                                   applications that share benefits and costs with
developing desk guides for business cases and
                                                   other Federal agencies or State or local
data calls, and identifying the steps for
                                                   governments, and to amend the CPIC process
implementing a systematic investment selection,
                                                   and guide documents to include the information
monitoring, and review process.
                                                   relative to investments providing shared
The IRS also provides appropriate information      benefits.
about its information technology investment
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             July 9, 2010


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Internal Revenue Service Is Improving
                             Management Controls for Information Technology
                             Strategic Planning and Capital Investments (Audit # 200920033)

 This report presents the results of our review of the management controls for information
 technology strategic planning and capital investments. The overall objective of this review was
 to determine the effectiveness of the controls for the Modernization and Information Technology
 Services organization’s Capital Planning and Investment Control process to manage and control
 the Internal Revenue Service (IRS) information technology investments. This review is part of
 our Fiscal Year 2010 Annual Audit Plan and addresses the major management challenge of
 Modernization of the IRS.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or Alan Duncan,
 Assistant Inspector General for Audit (Security and Information Technology Services), at
 (202) 622-5894.
                                     The Internal Revenue Service Is Improving
                                  Management Controls for Information Technology
                                    Strategic Planning and Capital Investments




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Strategy and Capital Planning Office Is Improving
          Processes for Information Technology Investment
          Selection and Management ...........................................................................Page 3
          To Comply With All Aspects of the Clinger-Cohen Act,
          the Strategy and Capital Planning Office Should Implement
          Additional Processes.....................................................................................Page 4
                    Recommendations 1 and 2: ................................................Page 7

          The Strategy and Capital Planning Office Is Effectively
          Using the Information Technology Investment
          Management Framework ..................................................................... Page 7
          Appropriate Information About Information Technology
          Investment Status Is Provided to the Office of Management
          and Budget ....................................................................................................Page 9

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 11
          Appendix II – Major Contributors to This Report ........................................Page 13
          Appendix III – Report Distribution List .......................................................Page 14
          Appendix IV – Glossary of Terms................................................................Page 15
          Appendix V – Management’s Response to the Draft Report .......................Page 17
          The Internal Revenue Service Is Improving
       Management Controls for Information Technology
         Strategic Planning and Capital Investments




                Abbreviations

CPIC      Capital Planning and Investment Control
IRS       Internal Revenue Service
IT        Information Technology
ITIM      Information Technology Investment Management
MITS      Modernization and Information Technology Services
                              The Internal Revenue Service Is Improving
                           Management Controls for Information Technology
                             Strategic Planning and Capital Investments




                                          Background

The Clinger-Cohen Act of 1996 1 makes the Office of Management and Budget responsible for
improving the acquisition, use, and disposal of information technology (IT) to improve Federal
programs. Capital Planning and Investment Control (CPIC) is a key requirement of the
Clinger-Cohen Act and represents a fundamentally sound strategic and financial management
practice for IT investments.
The Internal Revenue Service (IRS) uses the CPIC process
to identify, prioritize, and manage IT investments that
support the fulfillment of its vision and mission. The CPIC              The CPIC process integrates
process is built on business practices that promote the                    IRS best practices and
                                                                          processes to establish an
realization of mission and strategic objectives while
                                                                         enterprise-wide information
ensuring compliance with Federal laws. The process works                   technology investment
in concert with the Department of the Treasury CPIC                        management approach.
process by providing Department executives with the
necessary information for Treasury-wide IT portfolio
decision making.
The IRS established its CPIC office in Calendar Year 2002 under the Assistant Chief
Information Officer, Management. In July 2009, the Modernization and Information Technology
Services (MITS) organization reorganized the CPIC office into the Strategy and Capital Planning
office under the Associate Chief Information Officer, Strategy and Planning. This new office
incorporated the existing CPIC office and the Portfolio Planning, Estimation, and Delivery
Services organization. Additionally, the restructuring of this office included placing the
Modernization Vision and Strategy 2 office under the Strategy and Capital Planning office.
The mission of the Strategy and Capital Planning office is to provide investment management
services to help ensure value-added IT products and services, ensure fidelity to investment
principles, and fulfill legislative and oversight requirements. The Strategy and Capital Planning
office focuses on IRS-wide IT strategy and capital planning and investment controls. The CPIC
process is the framework for selecting, managing, and evaluating IRS IT investments in
compliance with applicable laws and guidance. This process also helps to ensure alignment with
Department of the Treasury and IRS strategy and conformance with best practices for IT
investment management.



1
  Pub. L. No. 104-106, February 10, 1996 [formerly called the Information Technology Management Reform Act
(ITMRA)].
2
  See the Glossary of Terms in Appendix IV for definitions of terms used throughout this report.
                                                                                                     Page 1
                           The Internal Revenue Service Is Improving
                        Management Controls for Information Technology
                          Strategic Planning and Capital Investments



The following Strategy and Capital Planning office goals are designed to support the mission of
the IRS:
   •   Ensure strategic alignment and governance.
   •   Facilitate process innovation.
   •   Deploy enabling technology and tools.
   •   Provide guidance in implementing key processes.
   •   Mobilize human resources.
This review was performed at the MITS organization facilities in New Carrollton, Maryland,
during the period December 2009 through April 2010. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives. Detailed information on our audit objectives, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                          Page 2
                            The Internal Revenue Service Is Improving
                         Management Controls for Information Technology
                           Strategic Planning and Capital Investments




                                 Results of Review

The Strategy and Capital Planning Office Is Improving Processes for
Information Technology Investment Selection and Management
The Chief Technology Officer expressed a strong desire to reduce redundancy and find
efficiencies within the MITS organization. As part of a strategy to make the MITS organization
more efficient, the CPIC and Portfolio Planning, Estimation, and Delivery Services offices were
merged to resolve the functional overlap and reduce burden to the stakeholders. This merger
formed the Strategy and Capital Planning office. To achieve the efficiencies from the
organizational restructuring, plans are in process to centralize within the Strategy and Capital
Planning office responsibilities for:
   •    Solution Concept Development.
   •    Investment Planning.
   •    Investment Management.
   •    Estimation Programming.
   •    Transition Management.
To gain further efficiencies, the Director of the Strategy and Capital Planning office established a
Process Improvement Team. The Director, working with this team, has identified action items
that include:
    •   Completing the Strategy and Capital Planning office charter and communication plan.
    •   Assigning Strategy and Capital Planning office work areas.
    •   Updating the IRS CPIC Process Guide.
    •   Creating desk guides to develop business cases, data calls, Office of Management and
        Budget Capital Asset Plan and Business Case – Exhibit 300, and Agency Information
        Technology Investment Portfolio – Exhibit 53.
    •   Creating desk guides to close out investments, convert major investments to nonmajor
        investments, and merge investments.
    •   Identifying the steps to implement a systematic investment selection, monitoring, and
        review process that include four continual, seamless phases: 1) pre-select, 2) select,
        3) control, and 4) evaluate.

                                                                                             Page 3
                                 The Internal Revenue Service Is Improving
                              Management Controls for Information Technology
                                Strategic Planning and Capital Investments



To improve investment decisions and achieve efficiencies in
the investment selection process, the Strategy and Capital         A Pre-Select phase has been
Planning office developed the Pre-Select phase. The Case              developed to establish
for Action document initiates the business investment              alignment  between strategic
                                                                   priorities of the IRS and the
proposal through the Pre-Select phase. Previously,                  IT investments approach.
executive consideration and approval of IT investments was
based on very detailed solution concept descriptions and
cost estimations. To alleviate some of the effort relating to IT investment planning and decision
making and to ensure strategic alignment of the investments, the Strategy and Capital Planning
office added the Pre-Select phase that was based upon the use of a business case.
The Pre-Select phase provides a means to assess the need for a proposed investment. It is during
this phase that the business need is identified and alignment to IRS strategic planning and
priorities are established. Those investments that best support the strategic planning and
priorities are chosen to proceed. The Pre-Select phase provides business owners an opportunity
to develop the concept of the investment while defining the business needs, performance
measures, benefits, risk, and costs which will be included in the investment’s business case and,
if approved, in the IRS’ investment portfolio. The IRS’ CPIC Process Guide was updated to
include the Pre-Select phase.
Our followup review on findings from the Treasury Inspector General for Tax Administration
report entitled Business Cases for Information Technology Projects Remain Inaccurate 3 found
that adequate corrective actions and revised and updated criteria have helped ensure accurate:
      •   Recording of IRS project costs.
      •   Earned Value Management calculations.
      •   Reporting of the IRS application inventory.

To Comply With All Aspects of the Clinger-Cohen Act, the Strategy
and Capital Planning Office Should Implement Additional Processes
The CPIC process in the IRS generally complies with Clinger-Cohen Act requirements. The
Clinger-Cohen Act requirements include use of a CPIC process by senior managers to
systematically maximize the benefits of IT investments. At the highest level, IRS senior
managers participate in the MITS Enterprise Governance Committee to ensure strategic
modernization and IT program investments, goals, and activities are aligned with and support:
1) the business needs across the enterprise and 2) the modernized vision of the IRS. We also
identified Strategy and Capital Planning office involvement in governance meetings at the next


3
    Reference Number 2007-20-024, dated January 25, 2007.
                                                                                           Page 4
                           The Internal Revenue Service Is Improving
                        Management Controls for Information Technology
                          Strategic Planning and Capital Investments



lowest level—Executive Steering Committees—to provide direction and oversight on various IT
topics such as customer service applications and infrastructure requirements.
Our review found the IRS reports, business cases, and systems used to convey the status of the
IT investment portfolio are generally effective and meet the requirements of the Clinger-Cohen
Act. Overall, the Treasury Exhibit 300 guide, used to prepare the projects’ Capital Asset Plan
and Business Case – Exhibit 300, adequately addresses the requirements of the Clinger-Cohen
Act. Further, our review of four major projects’ Capital Asset Plan and Business Case –
Exhibit 300 (Account Management Services, Customer Account Data Engine, Integrated Data
Retrieval System, and Modernized e-File) found the business cases adequately addressed the
requirements of the Clinger-Cohen Act.

The Strategy and Capital Planning office has updated the CPIC process to comply
with the Clinger-Cohen Act
The Clinger-Cohen Act’s critical CPIC elements require each executive agency to design and
implement a process for maximizing the value and assessing and managing the risk of the IT
acquisitions. The CPIC process needs to:
   •   Provide for the selection of information technology investments to be made by the
       executive agency, the management of such investments, and the evaluation of the results
       of such investments.
   •   Be integrated with the processes for making budget, financial, and program management
       decisions within the executive agency.
   •   Include minimum criteria to be applied in considering whether to undertake a particular
       investment in information systems, criteria related to the quantitatively expressed
       projected net risk adjusted return on investment, and specific quantitative and qualitative
       criteria for comparing and prioritizing alternative information systems investment
       projects.
   •   Provide for identifying information systems investments that would result in shared
       benefits or costs for other Federal agencies or State or local governments.
   •   Require identification of quantifiable measurements for determining the net benefits and
       risks of a proposed investment.
   •   Provide the means for senior management to obtain timely information regarding the
       progress of an investment, including a system of milestones for measuring progress, on
       an independently verifiable basis, in terms of cost, capability of the system to meet
       specified requirements, timeliness, and quality.
The Strategy and Capital Planning office has implemented a CPIC process to identify, prioritize,
and manage IT investments that support the IRS’ fulfillment of its vision and mission. A CPIC

                                                                                            Page 5
                            The Internal Revenue Service Is Improving
                         Management Controls for Information Technology
                           Strategic Planning and Capital Investments



Process Guide was developed in August 2005. This guide is based on the IT aspects of Federal
laws and statutes and focuses specifically on the Clinger-Cohen Act requirements, which
mandate a structured CPIC process to systemically maximize the benefits of IT investments.
This guide was updated in February 2010. The updated guide includes direction for the
Pre-Select phase of the investment selection process and also updates the Select, Control, and
Evaluate phases. Some of the key improvements reflected in this updated guide include use of
the IRS Business Case in Pre-Select and Select phases, monthly reporting requirements
described in the Control phase, and an Evaluate phase that emphasizes performance outcome.
Further, the Strategy and Capital Planning office staff is developing guidance to help ensure
effective performance of the CPIC process. This guidance is referred to as “Process
Views” which will provide updated and detailed roles and responsibilities for the Strategy and
Capital Planning office staff to execute the CPIC process.

The requirement to identify information systems investments resulting in shared
benefits or costs with other agencies or governments is not included in the CPIC
guidance
Overall, the Strategy and Capital Planning office has implemented a CPIC process that meets
five of the requirements of the Clinger-Cohen Act to design and implement a CPIC process for
maximizing the value and assessing and managing the risk of the IT acquisitions. However, the
Strategy and Capital Planning office’s CPIC process does not address the Clinger-Cohen Act
requirement for identifying IT investments that would result in shared benefits or costs for other
Federal agencies or State or local governments.
The IRS operates various systems that receive or provide information to other Federal agencies
and State and local governments. For example, the IRS shares information with the Social
Security Administration and provides tax return filing information with State tax agencies
through the Modernized e-File system’s single point of filing capability. Additionally, new
legislation has emerged requiring additional IT investments. Examples include the Health
Coverage Tax Credit and the Department of Education’s Federal Student Aid/Datashare
applications. Having CPIC process direction would help to efficiently and effectively manage
activities to anticipate and develop necessary IT investments resulting in shared benefits or costs
with other Federal agencies or State or local governments.
Without addressing the requirement in the CPIC process to identify IT investments resulting in a
shared benefit or cost with other government organizations, the IRS is not meeting the intent of
the Clinger-Cohen Act. Addressing a process to identify these shared benefits and costs helps
the organization to maximize the value and assess and manage the risk of its IT acquisitions.
Further, the Capital Asset Plan and Business Case – Exhibit 300 guide for IT investments
requires an explanation about how it will support the President’s Management Agenda initiatives
on Expanded E-Government. The initiative provides that IT investments, whenever applicable,
address support for each of the three elements of electronic government: increased access and
                                                                                             Page 6
                            The Internal Revenue Service Is Improving
                         Management Controls for Information Technology
                           Strategic Planning and Capital Investments



reduced burden through use of the Internet and e-Business technology; selection and evaluation
of IT investments based on citizen needs; and collaboration with Federal, State, local, and tribal
governments. Collaboration includes joint development or implementation of technology or
applications, acquisition of systems that complement and are interoperable with existing systems
in the Federal Government, and data-sharing across governmental boundaries.
While the IRS utilizes the Capital Asset Plan and Business Case – Exhibit 300 guide, there is no
procedure in place to ensure all IT investment benefits and costs shared with other Federal
agencies or State or local governments are captured as part of the CPIC process. Additionally,
the CPIC process does not include guidance about the need for IT investment decisions that
require input from the other agencies. Further, the available inventory records of IRS major and
nonmajor IT applications do not readily identify shared benefits or costs with other Federal
agencies or State or local governments.

Recommendations
To ensure full compliance with the Clinger-Cohen Act, the Chief Technology Officer should
require the MITS organization to:
Recommendation 1: Identify applications in the IT inventory that share benefits and costs
with other Federal agencies or State or local governments.
       Management’s Response: The IRS agreed with our recommendation and will work
       with other appropriate offices to develop an IT inventory of MITS applications that share
       benefits and costs with other Federal agencies or State or local governments.
Recommendation 2: Establish a CPIC process that identifies IT investments that share a
benefit or cost with other Federal agencies or State or local governments. This process should
include the costs to provide the benefit, the costs to be reimbursed by other agencies or State or
local governments, the role and responsibilities these agencies have in making decisions
regarding the investment, how these agencies will be notified and impacted by changes to the
investment, and whether the agencies have a point of contact to notify the IRS when the benefit
being provided is no longer required.
       Management’s Response: The IRS agreed with our recommendation and will
       amend the CPIC process and guidance documents to include the collection of all
       appropriate information relative to investments providing shared benefits.

The Strategy and Capital Planning Office Is Effectively Using the
Information Technology Investment Management Framework
The Information Technology Investment Management Framework (ITIM) identifies critical IT
investment processes, establishes the presence or absence of these critical processes in an

                                                                                             Page 7
                              The Internal Revenue Service Is Improving
                           Management Controls for Information Technology
                             Strategic Planning and Capital Investments



organization, assesses an organization’s IT investment management capability and maturity, and
offers recommendations for improvement. Used in this way, the ITIM can be a valuable tool that
supports organizational self-assessment and improvement and provides a standard against which
an evaluation of an organization can be conducted.
The ITIM identifies and organizes 13 processes into a framework of increasingly mature stages
that are critical for successful investment. Such a framework can be used either to analyze an
organization’s investment management process or to determine the maturity of its investment
process. The framework provides three key capabilities:
    1) A rigorous, standardized tool for internal and external evaluations of the IT investment
       management process.
    2) A consistent and comprehensible mechanism for reporting the results of these
       assessments to agency executives, Congress, and other interested parties.
    3) A road map for improving investment management processes.
The ITIM is comprised of five stages of maturity. Each stage builds upon the lower stages and
enhances the organization’s ability to manage its IT investments. Figure 1 shows the five ITIM
stages and gives a brief description of each stage.
           Figure 1: The Five Stages of Maturity Within the ITIM Framework




Source: Government Accountability Office; Information Technology Investment Management – A Framework for
Assessing and Improving Process Maturity, GAO-04-394G, dated March 2004.




                                                                                                   Page 8
                            The Internal Revenue Service Is Improving
                         Management Controls for Information Technology
                           Strategic Planning and Capital Investments



The IRS has adopted the ITIM. To determine its investment management capabilities, the
Strategy and Capital Planning office performed assessments of its critical processes to meet
ITIM Maturity Stage 2, one in December 2007 and another in November 2008. The Strategy and
Capital Planning office used the results of the December 2007 assessment to help improve its
portfolio management maturity rating. The MITS organization addressed critical process
recommendations to meet Maturity Stage 2 requirements for instituting the investment board,
meeting business needs, selecting an investment, and providing investment oversight. Our
review of the subsequent November 2008 Strategy and Capital Planning office self-assessment
determined that the evidence gathered was sufficient to support an ITIM Maturity Stage 2 rating.
The MITS organization is currently moving the IRS toward ITIM Maturity Stage 3. Information
provided by the Strategy and Capital Planning office shows it has executed 15 of 27 ITIM
Maturity Stage 3 key practices. The IRS anticipates performing an ITIM Maturity Stage 3
self-assessment later in Calendar Year 2010.

Appropriate Information About Information Technology Investment
Status Is Provided to the Office of Management and Budget
To accomplish the goal of transparency and accountability set
by the President and the Office of Management and Budget,              Through the IT Dashboard,
Federal agencies are required to report on the progress of their        Federal agencies and the
existing IT investments at least monthly. These updates apply          public have unprecedented
                                                                         visibility into Federal IT
to all investments in the agency’s portfolio and include changes
                                                                               investments.
to cost and schedule, updates to contract information,
performance metrics, and Chief Information Officer (or, in the
IRS, Chief Technology Officer) Evaluation. In addition to the monthly updates, agencies also
submit a full refresh of the investment data once a year (Capital Asset Plan and Business Case –
Exhibit 300) after the publication of the President’s Budget. This update of all investment data
includes the addition of any new investments and comprehensive updates to existing
investments. The repository for this information is referred to as the Office of Management and
Budget IT Dashboard. Figure 2 presents an example of the IRS’ data input to the Office of
Management and Budget IT Dashboard.




                                                                                             Page 9
                                             The Internal Revenue Service Is Improving
                                          Management Controls for Information Technology
                                            Strategic Planning and Capital Investments



           Figure 2: IT Dashboard - Milestone Earned Value Management Metrics
                                                                                               Cost            Cost           Schedule        Schedule
                                                                    Date         Data as of Variance %       Variance        Variance %       Variance
   Investment Name                                                 Updated         Date        Total         Indicator          Total         Indicator
 1 Account Management Services (AMS)                                 6-Nov-09      30-Sep-09       -7.14 Green                     -21.72 Yellow
 2 Automated Collection System (ACS) - Major                         6-Nov-09      30-Sep-09       0.21 Green                       -1.29 Green
 3 Business Master File (BMF)                                        29-Oct-09     30-Sep-09       -1.88 Green                      -0.72 Green
 4 Counsel Automated Systems Environment (CASE)                     12-Nov-09      30-Sep-09        -0.8 Green                      -2.81 Green
 5 Criminal Investigation Management Information System (CIMIS)      3-Nov-09      30-Sep-09       4.02 Green                       0.00 Green
 6 Current CADE                                                      9-Nov-09      30-Sep-09       -0.06 Green                      -0.70 Green
 7 Electronic Fraud Detection System (EFDS)                         10-Nov-09      30-Sep-09       -4.47 Green                      0.00 Green
 8 Electronic Management System (EMS)                                4-Nov-09      30-Sep-09       6.38 Green                       -7.50 Green
 9 Enterprise Data Access Strategy (EDAS)                            4-Nov-09      30-Sep-09       -5.66 Green                      -5.04 Green
10 e-Services                                                       13-Nov-09      30-Sep-09       -7.98 Green                      -0.20 Green
11 Excise Files Information Retrieval Systems (ExFIRS)               3-Nov-09      30-Sep-09      -35.17 Yellow                     -8.18 Green
12 Financial Management Information Systems (FMIS)                  13-Nov-09      30-Sep-09       0.12 Green                       0.00 Green
13 Implement RRP**                                                   25-Jul-09      30-Jun-09 -          -               -                -
14 Individual Master File (IMF)                                      29-Oct-09     30-Sep-09       1.46 Green                       -5.51 Green
15 Information Returns Processing (IRP)                              29-Oct-09     30-Sep-09       -0.66 Green                      -5.91 Green
16 Integrated Collection System (ICS)                                5-Nov-09      30-Sep-09       -9.87 Green                      -4.95 Green
17 Integrated Customer Communication Environment (ICCE)             12-Nov-09      30-Sep-09      -19.85 Yellow                     -6.91 Green
18 Integrated Data Retrieval System (IDRS)                           2-Nov-09      30-Sep-09       0.05 Green                       -4.10 Green
19 Integrated Financial System/CORE Financial System (IFS)           5-Nov-09      30-Sep-09       -0.18 Green                      -7.32 Green
20 Integrated Submission and Remittance Processing System (ISRP)     9-Nov-09      30-Sep-09       -8.49 Green                      -0.58 Green
21 Interim Revenue Accounting Control System (IRACS)                 9-Nov-09      30-Sep-09      -11.89 Yellow                     -6.22 Green
22 Modernized e-File (MeF)                                           4-Nov-09      30-Sep-09       -6.78 Green                      8.88 Green
23 Reporting Compliance Case Management System (RCCMS)               9-Nov-09      30-Sep-09       -0.02 Green                      -6.56 Green
24 Service Center Recognition Image Processing System (SCRIPS)      16-Nov-09      30-Sep-09       -2.81 Green                      -1.79 Green
25 Tax Return Data Base (TRDB)                                       29-Oct-09     30-Sep-09       6.75 Green                      -11.13 Yellow
26 Web Currency Banking and Retrieval System (WebCBRS)               5-Nov-09      30-Sep-09       0.07 Green                      -10.14 Yellow
27 Web Requisition Tracking System WebRTS/IPS)                       6-Nov-09      30-Sep-09       -0.87 Green                      0.69 Green

Source: Strategy and Capital Planning, IT Dashboard Report, dated November24, 2009.

To comply with the IT Dashboard reporting requirements, the IRS follows the Department of the
Treasury Exhibit 300 Guidebook. The Guidebook provides instruction to timely and accurately
report required information to the Department of the Treasury for input to the IT Dashboard.
The Guidebook also requires data sources and validation of the information.
We reviewed the reporting of required information to the IT Dashboard for four major IRS
projects—Account Management Services, Customer Account Data Engine, Integrated Data
Retrieval System, and Modernized e-File. We found that the project staffs adequately compiled
the necessary information for effective reporting of project status for monthly input to the
IT Dashboard.




                                                                                                                                          Page 10
                               The Internal Revenue Service Is Improving
                            Management Controls for Information Technology
                              Strategic Planning and Capital Investments



                                                                                            Appendix I

           Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine the effectiveness of the MITS
organization’s CPIC process to manage the IRS IT investments.
We assessed the adequacy of program documentation and data provided by the IRS, the Strategy
and Capital Planning office, and selected Capital Asset Plan and Business Cases – Exhibit 300.
We supported this work by interviewing Strategy and Capital Planning organization personnel.
Specifically, we:
I.         Determined whether the restructured IRS Strategy and Capital Planning office has
           adequate plans to be able to effectively manage and control the IRS IT portfolio.
II.        Determined whether the IRS and the Strategy and Capital Planning office have
           effectively implemented procedures to manage the IRS IT portfolio in conjunction with
           the Clinger-Cohen Act.
III.       Determined whether the MITS organization is effectively using the Government
           Accountability Office’s ITIM to help ensure proper control over the IRS IT portfolio.
IV.        Determined whether the IRS is meeting the Office of Management and Budget IT
           Dashboard reporting requirements.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. These controls include the
systems for measuring, reporting, and monitoring program performance.
We determined the Strategy and Capital Planning office adapted appropriate guidance to provide
the internal controls relevant to our audit objective. Specifically, the major guidance used in this
office to manage the IRS IT investments includes the:
       •   Clinger-Cohen Act of 1996. 1
       •   Internal Revenue Manual.
       •   IRS CPIC Process Guide.


1
  Pub. L. No. 104-106, February 10, 1996 [formerly called Information Technology Management Reform Act
(ITMRA)].
                                                                                                   Page 11
                      The Internal Revenue Service Is Improving
                   Management Controls for Information Technology
                     Strategic Planning and Capital Investments



•   Government Accountability Office Information Technology Investment Management, A
    Framework for Assessing and Improving Process Maturity (GAO-04-394G Version 1.1,
    dated November 2004).




                                                                              Page 12
                          The Internal Revenue Service Is Improving
                       Management Controls for Information Technology
                         Strategic Planning and Capital Investments



                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Scott A. Macfarlane, Director
Edward A. Neuwirth, Audit Manager
Michael A. Garcia, Senior Auditor
Glen J. Rhoades, Senior Auditor
Louis V. Zullo, Senior Auditor
Frank J. O’Connor, Program Analyst




                                                                                     Page 13
                         The Internal Revenue Service Is Improving
                      Management Controls for Information Technology
                        Strategic Planning and Capital Investments



                                                                        Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief, Agency-Wide Shared Services OS:A
Chief Information Officer OS:CTO:CIO
Associate Chief Information Officer, Applications Development OS:CTO:AD
Associate Chief Information Officer, Enterprise Services OS:CTO:ES
Associate Chief Information Officer, Strategy and Planning OS:CTO:SP
Deputy Associate Chief Information Officer, Applications Development OS:CTO:AD
Director, Procurement OS:A:P
Director, Risk Management OS:CTO:SP:RM
Director, Strategy and Capital Planning OS:CTO:SP:CP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Associate Chief Information Officer, Applications Development OS:CTO:AD
       Associate Chief Information Officer, Enterprise Services OS:CTO:ES
       Director, Procurement OS:A:P
       Director, Program Oversight OS:CTO:SM:PO




                                                                                 Page 14
                            The Internal Revenue Service Is Improving
                         Management Controls for Information Technology
                           Strategic Planning and Capital Investments



                                                                             Appendix IV

                              Glossary of Terms

            Term                                         Definition
Account Management Services A project that will modernize the capability to collect, view,
                            retrieve, and manage taxpayer information.
Agency Information             A document covering information technology investments for
Technology Investment          the agency as a whole that is to be submitted to the Office of
Portfolio (Exhibit 53)         Management and Budget if the agency 1) is subject to
                               executive branch review and is requesting information
                               technology funding via a Capital Asset Plan and Business
                               Case (Exhibit 300) or 2) has budget authority of $500,000 or
                               more for financial management systems.
Best Practice                  A technique or methodology that, through experience and
                               research, has proven to reliably lead to a desired result.
Capital Asset Plan and         Required by Office of Management and Budget Circular A-11
Business Case (Exhibit 300)    (Preparation, Execution, and Submission of the Budget; dated
                               June 2005) and commonly called Exhibit 300, Capital Asset
                               Plan and Business Case. Each agency must submit a Business
                               Case twice a year for each major information technology
                               investment.
Customer Account Data          The foundation for managing taxpayer accounts in the IRS
Engine                         modernization plan. It will consist of databases and related
                               applications that will replace the existing IRS Master File
                               processing systems and will include applications for daily
                               posting, settlement, maintenance, refund processing, and issue
                               detection for taxpayer tax account and return data.
Earned Value Management        A project management technique for measuring actual cost
                               and work accomplished against the budgeted cost and planned
                               work scheduled. Variances are analyzed for decision making.
Executive Steering Committee Oversees investments, including validating major investment
                             business requirements and ensuring that enabling technologies
                             are defined, developed, and implemented.


                                                                                      Page 15
                          The Internal Revenue Service Is Improving
                       Management Controls for Information Technology
                         Strategic Planning and Capital Investments



              Term                                      Definition
IT Modernization Vision and   A 5-year plan that drives investment decisions, addresses the
Strategy                      priorities around modernizing front-line tax administration and
                              supporting technical capabilities, and leverages existing
                              systems (where possible) and new development (where
                              necessary) to optimize capacity, manage program costs, and
                              deliver business value on a more incremental and frequent
                              basis.
Infrastructure                The fundamental structure of a system or organization. The
                              basic, fundamental architecture of any system (electronic,
                              mechanical, social, political, etc.) determines how it functions
                              and how flexible it is to meet future requirements.
Integrated Data Retrieval     The IRS computer system capable of retrieving or updating
System                        stored information; it works in conjunction with a taxpayer’s
                              account records.
Master File                   The IRS database that stores various types of taxpayer account
                              information. This database includes individual, business, and
                              employee plans and exempt organizations data.
Milestone                     The “go/no-go” decision point in a project; it is sometimes
                              associated with funding approval to proceed.
MITS Enterprise Governance    Highest level recommending and decision-making body to
Committee                     oversee and enhance enterprise management of information
                              systems and technology. It ensures strategic modernization
                              and IT program investments, goals, and activities are aligned
                              with and support 1) the business needs across the enterprise
                              and 2) the modernized vision of the IRS.
Modernized e-File             The modernized, web-based platform for filing approximately
                              330 IRS forms electronically, beginning with the
                              U.S. Corporation Income Tax Return (Form 1120),
                              U.S. Income Tax Return for an S Corporation (Form 1120S),
                              and Return of Organization Exempt From Income Tax
                              (Form 990).




                                                                                       Page 16
           The Internal Revenue Service Is Improving
        Management Controls for Information Technology
          Strategic Planning and Capital Investments



                                                 Appendix V

Management’s Response to the Draft Report




                                                         Page 17
   The Internal Revenue Service Is Improving
Management Controls for Information Technology
  Strategic Planning and Capital Investments




                                                 Page 18
